 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 CALIFORNIA MADE UNALLOWABLE
MEDICAID PAYMENTS FOR ITEMS AND
SERVICES FURNISHED, ORDERED, OR
         PRESCRIBED BY
      EXCLUDED PROVIDERS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         April 2013
                                                       A-09-11-02016
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  California made unallowable Medicaid payments of approximately $1.9 million
  ($1.2 million Federal share) for items and services furnished, ordered, or prescribed by
  excluded providers from July 1, 2009, through June 30, 2010.

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services, Office of Inspector General (OIG), may
exclude certain individuals and entities from participation in federally funded health care
programs. (In this report, we refer to these individuals and entities as “excluded providers.”)
One of the consequences of an exclusion is that the Medicaid program will not pay for items or
services furnished, ordered, or prescribed by an excluded provider. OIG is conducting reviews
of multiple States to determine whether they made such unallowable payments.

The objective of this review was to determine whether the California Department of Health Care
Services (State agency) made Medicaid payments for items and services furnished, ordered, or
prescribed by excluded providers.

BACKGROUND

The Social Security Act prohibits Federal payment for any expenditure for an item or a service
furnished by an excluded provider (§ 1903(i)(2)). It also provides that no payment may be made
to a provider for items or services ordered or prescribed by an excluded physician. A Federal
regulation specifies that no payment may be made by a State for any item or service furnished,
ordered, or prescribed by an excluded provider (42 CFR § 1002). Centers for Medicare &
Medicaid Services (CMS) guidance provides that States should conduct searches monthly of
either of two Federal databases, one maintained by CMS and one maintained by OIG, to identify
provider exclusions and reinstatements that have occurred since the last search.

To identify payments for items and services furnished, ordered, or prescribed by excluded
providers, we reviewed approximately 236 million Medicaid fee-for-service claim lines paid by
the State agency, totaling $31.5 billion, with dates of service from July 1, 2009, through
June 30, 2010.

WHAT WE FOUND

The State agency made unallowable Medicaid payments of $1,900,466 ($1,170,497 Federal
share) for items and services furnished, ordered, or prescribed by excluded providers. The State
agency made these payments because it did not have policies and procedures to (1) ensure that
all agencies within California responsible for enrolling providers or processing Medicaid claims
for reimbursement performed monthly reviews to identify excluded providers and (2) identify
whether any furnishing, ordering, or prescribing providers listed on a claim were excluded.
Although the amount of unallowable payments is small when compared with the $31.5 billion in
claims paid by the State agency, no Medicaid payments may be made for items or services
furnished, ordered, or prescribed by excluded providers.


California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                    i
In addition, the State agency paid $1,134,529 ($698,756 Federal share) for additional items or
services that may have been furnished, ordered, or prescribed by excluded providers and
therefore may have been unallowable. The claim data provided by the State agency did not
always include sufficient detail to verify whether some furnishing or prescribing providers were
excluded or to determine the specific roles of some providers listed on the claims (i.e., ordering,
prescribing, or referring). Because the exclusion status of some providers could not be verified
and some providers may have been acting only as referring physicians and may not have ordered
or prescribed the items or services claimed (in which case Medicaid payments to non-excluded
providers would have been allowable), we set aside the Federal share of $698,756 for resolution
by CMS and the State agency.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $1,170,497 to the Federal Government for unallowable Medicaid payments for
        items and services furnished, ordered, or prescribed by excluded providers;

    •   work with CMS to resolve the $698,756 that we set aside and refund any payments for
        items or services furnished, ordered, or prescribed by excluded providers; and

    •   ensure that it does not pay for items or services furnished, ordered, or prescribed by
        excluded providers by developing and implementing policies and procedures to:

            o monitor agencies that enroll providers or process Medicaid claims to ensure
              compliance with CMS guidance that reviews be conducted monthly to identify
              excluded providers and

            o determine whether any providers (i.e., furnishing, ordering, or prescribing) listed
              on claims are excluded and deny those claims.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially agreed with our first and
second recommendations and fully agreed with our third recommendation. In addition, the State
agency provided information on actions that it had taken or planned to take to address our
recommendations. Nothing in the State agency’s comments caused us to revise our findings or
recommendations.




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                     ii
                                                    TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION................................................................................................................1

           Why We Did This Review .......................................................................................1

           Objective ...................................................................................................................1

           Background ..............................................................................................................1
                 Medicaid Program: Administration and Federal Reimbursement ................1
                 Excluded Providers ........................................................................................1
                 Sources of Information on Excluded Providers .............................................2
                 California Medicaid Program ........................................................................2

           How We Conducted This Review ...........................................................................3

FINDINGS ............................................................................................................................3

           Federal Requirements .............................................................................................4

           State Agency Made Unallowable Payments for Items and Services
             Furnished, Ordered, or Prescribed by Excluded Providers .............................4

           State Agency Did Not Have Policies and Procedures To Prevent
             Unallowable Payments..........................................................................................5

           State Agency Paid for Additional Items or Services That May Have Been
             Unallowable, but Data Were Insufficient To Determine Whether
             Providers Were Excluded.....................................................................................5

RECOMMENDATIONS.....................................................................................................6

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE.......................................................6

           State Agency Comments ..........................................................................................6

           Office of Inspector General Response ....................................................................7

APPENDIXES

           A: Audit Scope and Methodology..........................................................................8

           B: Related Office of Inspector General Reports ..................................................10



California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                                                             iii
        C: Federal Requirements Related to Excluded Providers ..................................11

        D: State Agency Comments ....................................................................................12




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                                           iv
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The U.S. Department of Health and Human Services, Office of Inspector General (OIG), may
exclude certain individuals and entities from participation in federally funded health care
programs. (In this report, we refer to these individuals and entities as “excluded providers.”)
One of the consequences of an exclusion is that the Medicaid program will not pay for items or
services furnished, ordered, or prescribed by an excluded provider. OIG is conducting reviews
of multiple States to determine whether they made such unallowable payments.

OBJECTIVE

Our objective was to determine whether the California Department of Health Care Services
(State agency) made Medicaid payments for items and services furnished, ordered, or prescribed
by excluded providers.

BACKGROUND

Medicaid Program: Administration and Federal Reimbursement

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved plan. Although the State has considerable flexibility in designing and operating
its Medicaid program, it must comply with applicable Federal requirements.

The Federal Government pays its share of a State’s medical assistance expenditures under
Medicaid based on the Federal medical assistance percentage, which varies depending on the
State’s relative per capita income (§ 1905(b) of the Social Security Act (the Act)). Medical
assistance expenditures include expenditures for items and services furnished, ordered, or
prescribed by providers enrolled in the State’s Medicaid program.

Excluded Providers

OIG may exclude certain individuals and entities from participation in federally funded health
care programs (§§ 1128, 1128A, and 1156 of the Act). Federal regulations specify certain bases
on which OIG may, or in some cases must, exclude providers from participation in Medicaid and
other Federal health care programs (42 CFR §§ 1001, 1003, and 1004). Federal regulations also
address the authority of State agencies to exclude providers from participation in the Medicaid
program (42 CFR § 1002).

The Act prohibits Federal payment for any expenditure for an item or a service furnished by an
excluded provider (§ 1903(i)(2)). It also provides that no payment may be made to a provider for
items or services ordered or prescribed by an excluded physician.



California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                   1
One of the consequences of an exclusion is that the Medicaid program will not pay for items or
services furnished, ordered, or prescribed by an excluded provider. Payment for such items or
services may not be made to the excluded provider, to anyone who employs or contracts with the
excluded provider, or to any hospital or other provider where the excluded provider furnished
items or services during the period of exclusion. The payment prohibition applies regardless of
who submits the claims and applies to all administrative and management services furnished by
the excluded provider. There is a limited exception permitting Federal payment to excluded
physicians for the provision of certain emergency items or services not provided in a hospital
emergency room. The exclusion period ends when OIG reinstates the provider.

Sources of Information on Excluded Providers

Two Federal databases contain information on excluded providers. OIG maintains a database
called the List of Excluded Individuals/Entities (LEIE). CMS maintains a database called the
Medicare Exclusion Database (MED). CMS guidance provides that States should conduct
searches monthly of the LEIE or the MED to identify provider exclusions and reinstatements that
have occurred since the last search.

List of Excluded Individuals/Entities

The LEIE contains information on excluded providers in the Medicare, Medicaid, and other
Federal health care programs. The LEIE is updated monthly and is available on OIG’s Web site
in two formats: an online search engine and a downloadable version of the database. The online
search engine identifies currently excluded providers. When a user finds a match between
providers listed in the search engine and providers in the State agency Medicaid enrollment files,
the user can verify the accuracy of the match using the Social Security number (SSN) or
Employer Identification Number (EIN). The user may also compare information in the
downloadable version of the database with information in State agency provider enrollment files.
Unlike the online search engine, however, the downloadable version of the database does not
contain SSNs or EINs.

Medicare Exclusion Database

In 2002, CMS developed the MED to collect information that aids in ensuring that no payments
are made to excluded providers for services furnished during a provider’s exclusion period. The
MED uses two information sources: the LEIE and Social Security Administration data. MED
files contain information on each excluded provider, including name, SSN, EIN, Unique
Physician Identification Number (UPIN), and National Provider Identifier (NPI). CMS updates
the MED files monthly and allows State Medicaid agencies to download them from a secure
CMS Web site.

California Medicaid Program

In California, the State agency is the single agency responsible for administration of the
Medicaid program. The State agency develops and maintains internal controls to administer the
Medicaid program. In addition to the State agency, six other agencies within California are



California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                   2
responsible for enrolling new Medicaid providers and maintaining provider records. The seven
agencies use different systems to maintain provider records and process claims. The seven
agencies use multiple sources, including the LEIE and State-specific information, to identify
excluded providers.

HOW WE CONDUCTED THIS REVIEW

We reviewed approximately 236 million Medicaid fee-for-service claim lines 1 paid by the State
agency, totaling $31.5 billion, with dates of service from July 1, 2009, through June 30, 2010.
We compared the State agency’s paid claims database with the MED to identify the claim lines
containing items and services that were furnished, ordered, or prescribed by providers during
their exclusion periods.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains a list
of related OIG reports on excluded providers in the Medicaid program.

                                                     FINDINGS

The State agency made unallowable Medicaid payments of $1,900,466 ($1,170,497 Federal
share) for items and services furnished, ordered, or prescribed by excluded providers. The State
agency made these payments because it did not have policies and procedures to (1) ensure that
all agencies within California responsible for enrolling providers or processing Medicaid claims
for reimbursement performed monthly reviews to identify excluded providers and (2) identify
whether any furnishing, ordering, or prescribing providers listed on a claim were excluded.
Although the amount of unallowable payments is small when compared with the $31.5 billion in
claims paid by the State agency, no Medicaid payments may be made for items or services
furnished, ordered, or prescribed by excluded providers.

In addition, the State agency paid $1,134,529 ($698,756 Federal share) for additional items or
services that may have been furnished, ordered, or prescribed by excluded providers and
therefore may have been unallowable. The claim data provided by the State agency did not
always include sufficient detail to verify whether some furnishing or prescribing providers were
excluded or to determine the specific roles of some providers listed on the claims (i.e., ordering,
prescribing, or referring). Because the exclusion status of some providers could not be verified
and some providers may have been acting only as referring physicians and may not have ordered
or prescribed the items or services claimed (in which case Medicaid payments to non-excluded



1
    A claim can have multiple claim lines. Each claim line represents a service or an item provided.



California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                        3
providers would have been allowable), we set aside the Federal share of $698,756 for resolution
by CMS and the State agency. 2

FEDERAL REQUIREMENTS

The Act prohibits Federal payment “with respect to any amount expended for an item or service”
furnished by an excluded provider (§ 1903(i)(2)). It also provides that no payment may be made
to a provider for items or services ordered or prescribed by an excluded physician. A Federal
regulation specifies that no payment may be made by a State for any item or service furnished,
ordered, or prescribed by an excluded provider (42 CFR § 1002). CMS guidance indicates that
States should search the MED or the LEIE monthly to identify excluded providers. 3

For details on the Federal requirements related to excluded providers, see Appendix C.

STATE AGENCY MADE UNALLOWABLE PAYMENTS FOR ITEMS AND SERVICES
FURNISHED, ORDERED, OR PRESCRIBED BY EXCLUDED PROVIDERS

From July 1, 2009, through June 30, 2010, the State agency made unallowable Medicaid
payments of $1,900,466 ($1,170,497 Federal share) for items and services furnished, ordered, or
prescribed by excluded providers. For each provider role identified in the claim data, the table
summarizes the total number of excluded provider claim lines and the payments made. 4

                  Number of Claim Lines and Payment Amounts by Provider Role

                                        No. of             No. of
                                        Claim            Excluded            Unallowable
          Provider Role                 Lines            Providers 5          Payments            Federal Share
     Billing Provider                      4,104                  176          $1,673,519            $1,030,720
     Prescribing Provider                  3,118                   82             213,508               131,500
     Furnishing Provider                     200                   13              13,439                  8,277
       Total                               7,422                  271          $1,900,466            $1,170,497




2
  If an excluded physician refers a patient to a non-excluded physician, and the non-excluded physician submits a
claim for items or services that he or she furnished, ordered, or prescribed, the fact that the patient was originally
referred by an excluded physician does not preclude Medicaid payment for claims by the non-excluded physician.
3
    CMS’s State Medicaid Director Letter #08-003, dated June 12, 2008.
4
 In California, a provider that submits a claim for Medicaid reimbursement is known as a billing provider. The
billing provider may be the furnishing provider or a medical practice or hospital of which the provider is a member.
A claim may not specifically identify who furnished an item or a service. In these instances, we treated the billing
provider as if it had furnished the item or service.
5
 These figures represent the number of unique providers that were matched to the MED. There is no overlap in the
number of providers listed.


California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                                          4
STATE AGENCY DID NOT HAVE POLICIES AND PROCEDURES TO PREVENT
UNALLOWABLE PAYMENTS

The State agency did not have policies and procedures to ensure that the seven agencies
responsible for enrolling providers or processing Medicaid claims performed monthly reviews to
identify excluded providers and prevent unallowable payments. After reviewing information
from officials at the seven agencies, we determined that the agencies used multiple sources,
including the LEIE, to identify excluded providers. Three of these agencies performed monthly
reviews of excluded providers. Of the four remaining agencies, one agency performed quarterly
reviews. The other three agencies reviewed the status of providers only when enrolling them and
did not perform any subsequent reviews.

In addition, the State agency did not have policies and procedures to identify whether any
furnishing, ordering, or prescribing providers listed on a claim were excluded. The seven
agencies determined only whether the billing provider had been excluded; they did not check
whether other providers (for example, prescribing or furnishing) identified on a claim line had
been excluded. Although billing providers were identified on enrollment, some claims
associated with excluded providers may have been paid because the individual agency did not
perform subsequent checks of the billing providers’ status.

STATE AGENCY PAID FOR ADDITIONAL ITEMS OR SERVICES THAT MAY
HAVE BEEN UNALLOWABLE, BUT DATA WERE INSUFFICIENT TO DETERMINE
WHETHER PROVIDERS WERE EXCLUDED

From July 1, 2009, through June 30, 2010, the State agency paid $1,134,529 ($698,756 Federal
share) for items or services that may have been furnished, ordered, or prescribed by excluded
providers and therefore may have been unallowable. The paid claims data that the State agency
provided us did not always (1) contain identification numbers (i.e., SSN, EIN, UPIN, or NPI) for
furnishing and prescribing providers that could be used to verify the providers’ exclusion status
or (2) separately identify ordering, prescribing, and referring providers: 6

    •    According to the State agency’s written description of the data fields, the fields for
         furnishing and prescribing providers can contain an NPI or other provider numbers, such
         as the number issued by the California Medicaid program. For some claim lines, these
         fields contained a provider identification number that could be matched to a UPIN in the
         MED but could not be traced to a specific excluded provider because the number could
         also have been a State medical license number or another number that we could not
         verify.

    •    According to the State agency’s written description of the data fields, the field for a
         prescribing provider contains an identification number of a prescribing provider only if
         the claim line also indicates, through the use of a specific provider type code, that a
         pharmacy submitted the claim. For all other claim lines, the identification number is that


6
 The State agency’s prescribing provider data field was also used to list provider identification numbers for ordering
and referring providers.


California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                                     5
        of a referring provider. However, there were many claim lines that did not contain a
        provider type code.

As a result of these issues, the data did not include sufficient detail on some of the claim lines to
(1) determine whether the furnishing or prescribing provider was excluded or (2) differentiate
between a provider who ordered or prescribed items or services and a provider who referred the
beneficiary to a different, non-excluded provider. Therefore, we set aside the Federal share of
$698,756 for resolution by CMS and the State agency.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,170,497 to the Federal Government for unallowable Medicaid payments for
        items and services furnished, ordered, or prescribed by excluded providers;

    •   work with CMS to resolve the $698,756 that we set aside and refund any payments for
        items or services furnished, ordered, or prescribed by excluded providers; and

    •   ensure that it does not pay for items or services furnished, ordered, or prescribed by
        excluded providers by developing and implementing policies and procedures to:

            o monitor agencies that enroll providers or process Medicaid claims to ensure
              compliance with CMS guidance that reviews be conducted monthly to identify
              excluded providers and

            o determine whether any providers (i.e., furnishing, ordering, or prescribing) listed
              on claims are excluded and deny those claims.

                            STATE AGENCY COMMENTS
                   AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency included the comments of several
agencies. Those comments were not always in harmony, and the State agency characterized its
response to the first two recommendations as partial agreement. Because the State agency
presented its letter as its response to the report, we consider the comments within to be the State
agency’s official comments. The State agency’s comments are included in their entirety as
Appendix D.

STATE AGENCY COMMENTS

The State agency partially agreed with our first and second recommendations and fully agreed
with our third recommendation. In addition, the State agency provided information on actions
that it had taken or planned to take to address our recommendations.




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                         6
Regarding the first recommendation, the State agency agreed to refund $1,030,721 of the
$1,170,497. However, the State agency did not agree that the remaining $139,777 represented
unallowable Medicaid payments. Regarding the second recommendation, the State agency
agreed to work with CMS to resolve the set-aside amount and refund any payments for services
furnished by certain excluded providers.

The State agency disagreed with our first and second recommendations for the same two reasons,
stating that (1) the data we provided did not positively identify unallowable Medicaid payments
for items and services furnished, ordered, or prescribed by excluded providers and (2) ordering
and prescribing providers were not required to enroll in California’s Medicaid program because
they were not direct billing providers.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the first recommendation, we disagree that the data did not positively identify
unallowable Medicaid payments, and the State agency did not provide us any additional
information to demonstrate that any of the questioned payments were allowable. In addition,
Federal requirements specify that no payment may be made by a State for any item or service
furnished, ordered, or prescribed by an excluded provider. This prohibition is not limited to only
those providers that bill for an item or a service that was furnished, ordered, or prescribed by an
excluded provider. Therefore, we continue to recommend that the State agency refund the entire
$1,170,497, including the $139,777, of unallowable Medicaid payments for items and services
furnished, ordered, or prescribed by excluded providers.

Regarding the second recommendation, because the paid claims data that the State agency
provided did not always include sufficient detail to determine whether the items or services were
furnished, ordered, or prescribed by excluded providers and whether the subsequent payments
were unallowable, we set aside the $698,756 for the State agency to determine whether the
claims included excluded providers and refund any unallowable payments. Additionally, the
payment prohibition applies to all providers and is not limited to only those providers that bill for
an item or a service. Therefore, we continue to recommend that the State agency work with
CMS to resolve the amount set aside and refund any payments for items or services furnished,
ordered, or prescribed by excluded providers.




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                     7
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed approximately 236 million Medicaid fee-for-service claim lines paid by the State
agency, totaling $31.5 billion, with dates of service from July 1, 2009, through June 30, 2010.
We did not review the overall internal control structure of the State agency or the Medicaid
program because our objective did not require us to do so. Rather, we limited our review to the
State agency’s internal controls to prevent Medicaid payments for items and services furnished,
ordered, or prescribed by excluded providers.

We conducted our audit from January 2011 to February 2012 and performed fieldwork at the
State agency’s offices in Sacramento, California.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed State agency policies, procedures, and guidance related to prevention of
        Medicaid payments for items and services furnished, ordered, or prescribed by excluded
        providers and held discussions with State agency officials;

    •   reviewed the LEIE as of March 2011 and the MED as of January 2011; 7

    •   obtained the State agency’s Medicaid provider database;

    •   obtained from the State agency a database that contained 236 million Medicaid claim
        lines for paid claims with dates of services from July 1, 2009, through June 30, 2010;

    •   developed a list of providers from the State agency’s paid claims database with additional
        identifying information from the State agency’s Medicaid provider database;

    •   compared the list of providers from the State agency’s paid claims database with the list
        of excluded providers in the MED on the basis of the SSN, NPI, EIN, and UPIN;

    •   identified the Medicaid payments that the State agency made for claim lines that listed an
        excluded provider during the listed providers’ exclusion periods; and




7
  We used the MED in our analysis because it was a cumulative list and contained providers’ exclusion and
reinstatement dates as well as their SSNs and NPIs, which were also listed in the State agency’s Medicaid provider
database.


California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                                      8
    •   calculated the Federal share of the payments for items and services furnished, ordered, or
        prescribed by excluded providers using the Federal medical assistance percentage
        (61.59 percent) applicable during the audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                  9
       APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                      Report Title                                   Report Number    Date Issued
Oregon’s Internal Controls Were Substantially Adequate               A-09-11-02042     11/17/11
To Prevent Medicaid Payments to Excluded Providers

Review of Medicaid Excluded Providers in Iowa                         A-07-10-03149    02/11/11

Review of Medicaid Excluded Providers in Missouri                     A-07-10-03153    02/04/11

Excluded Medicaid Providers: Analysis of Enrollment                 OEI-09-08-00330    05/19/10




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                   10
                APPENDIX C: FEDERAL REQUIREMENTS RELATED TO
                             EXCLUDED PROVIDERS

FEDERAL LAWS AND REGULATIONS

Section 1903(i)(2)(A) of the Act states: “Payment … shall not be made … with respect to any
amount expended for an item or service (other than an emergency item or service, not including
items or services furnished in an emergency room of a hospital) furnished … by any individual
or entity during any period when the individual or entity is excluded ….”

Section 1903(i)(2)(B) of the Act states that payment may not be made for items or services
furnished “at the medical direction or on the prescription of a physician, during the period when
such physician is excluded … and when the person furnishing such item or service knew or had
reason to know of the exclusion ….”

According to 42 CFR § 1001.2: “Exclusion means that items and services furnished, ordered or
prescribed by a specified individual or entity will not be reimbursed under Medicare, Medicaid
and all other Federal health care programs until the individual or entity is reinstated by the OIG.”
(Italics in original.)

With respect to these reimbursements or payments, 42 CFR § 1002.211(a) states:

        [N]o payment may be made by the State agency for any item or service furnished
        on or after the effective date specified in the notice by an excluded individual or
        entity, or at the medical direction or on the prescription of a physician who is
        excluded when a person furnishing such item or service knew, or had reason to
        know, of the exclusion.

CENTERS FOR MEDICARE & MEDICAID SERVICES GUIDANCE

According to CMS’s State Medicaid Director Letter #08-003, dated June 12, 2008, States should
search the MED or the LEIE by the name of any individual, entity, or individual with ownership
or controlling interest in any entity providing services paid for by the Medicaid program or
seeking to participate in Medicaid. States should search the MED or the LEIE monthly to
identify exclusions and reinstatements that have occurred since the last search.




California Medicaid Payments Associated With Excluded Providers (A-09-11-02016)                   11
                             APPENDIX D: STATE AGENCY COMMENTS 




                                    State of California-Health and Human Services Agency
          })HCS

         u TOBY DOUGLAS
             DIRECTOR
                                    Department of Health Care Services

                                                                                                                EDMUND G. BROWN JR.
                                                                                                                    GOVERNOR




                FEB 0 8 ?013
               Lori A. Ahlstrand 

               Regional Inspector General for Audit Services 

               Office of Audit Services, Region IX 

               90-?'h Street, Suite 3-650 

               San Francisco, CA 94103 


                Dear Ms. Ahlstrand:

               The California Department of Health Care Services has prepared its response to the
               U.S. Department of Health and Human Services, Office of Inspector General (OIG),
               draft report entitled California Made Unallowable Medicaid Payments for Items and
               Services Furnished, Ordered, or Prescribed by Excluded Providers, Report Number A­
               09-11-02016. DHCS appreciates the work performed by OIG and the opportunity to
               respond to the draft report.

               Please contact Ms. Raj Khela, Audit Coordinator, at (916) 650-0298 if you have any 

               questions. 


               Sincerely,




                Enclosure


               cc:        See next page




                            1501 Capitol Avenue, Suite 71.6001, MS 0000 • P.O. 997413 · Sacramento, CA 95899-7413 

                                                      (916) 440-7400 • (916) 440-7404 FAX 

                                                        Internet address: www.dhcs.ca.gov 





California M edicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)                                                   12
               Ms. Lori A. Ahlstrand
               Page2




               cc:    Ms. Karen Johnson
                      Chief Deputy Director
                      1501 Capitol Avenue, MS 0005
                      P.O. Box 997413 

                      Sacramento, CA 95899-7413 


                      Ms. Vicky Sady
                      Deputy Director
                      CA-Medicaid Management Information Systems
                      1501 Capitol Avenue, MS 4727
                      P.O. Box 997413 

                      Sacramento, CA 95899-7413 


                      Ms. Tanya Homman, Chief 

                      Provider Enrollment Division 

                      1501 Capitol Avenue, MS 4704 

                      P.O. Box 997413 

                      Sacramento, CA 95899-7413 


                      Mr. Jon Chin, Chief 

                      Medi-Cal Dental Services Division 

                      1501 Capitol Avenue , MS 4708 

                      P.O. Box 997413 

                      Sacramento, CA 95899-7413 


                      Ms. Vanessa Baird
                      Deputy Director
                      Mental Health & Substance Use Disorder Services
                      1501 Capitol Avenue, MS 4000
                      P.O. Box 997413 

                      Sacramento, CA 95899-7413 


                      Ms. Rene Mollow 

                      Deputy Director 

                      Health Care Benefits & Eligibility 

                      1501 Capitol Avenue, MS 4000 

                      P.O. Box 997413 

                      Sacramento, CA 95899-7413 





California M edicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)   13
                                    Department of Health Care Services' 

                      Response to the Office of Inspector General's Draft Report Entitled: 


                         California Made Unallowable Medicaid Payments for Items and 

                       Services Furnished, Ordered, or Prescribed by Excluded Providers 

                                         Report Number A-09-11-02016 


               Recommendation: 	        The State Agency refund $1 ,170,497, the Federal Financial
                                        Participation (FFP) amount, to the Federal Government for
                                        unallowable Medicaid payments for items and services
                                        furnished, ordered, or prescribed by excluded providers .

               Response: 	              DHCS partially agrees with the recommendation.

                                        Agree -The California Department of Social Services
                                        (CDSS) agrees to refund the FFP amount of $1,009,305 to
                                        the Federal Government. CDSS will work with DHCS to
                                        ensure that all ineligible provider data files are made
                                        available to ensure we identify and disallow Medicaid
                                        payments for items and services furnished to excluded
                                        providers.

                                        Agree - The Mental Health Services Division agrees to
                                        refund the FFP amount of $21,402 to the Federal
                                        Government for unallowable Medicaid payments made
                                        under the Department of Health Care Services (DHCS) for
                                        items and services furnished , ordered, or prescribed by the
                                        Mental Health Medi-Cal excluded provider identified for the
                                        dates of service from July 1, 2009 through June 30, 2010.

                                        Disagree- The California Medicaid Management
                                        Information Systems (CA-MMIS) Division and the Provider
                                        Enrollment Division (PED) disagree with this finding . CA­
                                        MMIS disagrees to this finding based on the review of claims
                                        identified by the Office of Inspector General (OIG) as out of
                                        compliance. The data provided by OIG does not positively
                                        identify unallowable Medicaid payments for items and
                                        services furnished , ordered , or prescribed by excluded
                                        providers. CA-MMIS agrees to refund the FFP amount of
                                        $14 made to billing providers that were excluded to
                                        participate in the Med icaid program during the period of the
                                        audit. However, CA-MMIS does not agree with the $139,777
                                        (FFP) identified by OIG as unallowable Medicaid payments
                                        for items and services furnished, ordered, or prescribed by
                                        excluded providers. In addition, CA-MMIS and PED do not
                                        agree with this recommendation because ordering and
                                        prescribing providers are not required to enroll in the Medi-
                                                     Page 1




California Medicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)                      14
                                         Cal program since they are not direct billing providers.
                                         Effective January 1, 2013, SB 1529 required ordering and
                                         prescribing providers to enroll. DHCS has informed CMS of
                                         the change in requirements and has approved this change
                                         through a State Plan Amendment.


               Recommendation: 	         The State Agency work with CMS to resolve the $698,756
                                         that we set aside and refund any payments for items or
                                         services furnished , ordered, or prescribed by excluded
                                         providers.

               Response: 	               DHCS partially agrees with the recommendation.

                                         Agree- The Medi-Cal Dental Services Division (MDSD)
                                         agrees with the recommendation . MDSD agrees to work
                                         with CMS to resolve the set aside amount and to refund any
                                         payments for services furnished by excluded Denti-Cal
                                         providers, where applicable.

                                         MDSD is currently conducting research to verify if any of the
                                         Dental providers who received payments were listed for
                                         exclusion and to identify the amount, if any, to be refunded .
                                         Anticipated completion date for the data validation analysis
                                         is the first quarter of calendar year 2013.

                                         1. 	   MDSD will perform an analysis of the OIG dental
                                                claims file submitted to DHCS . MDSD will compare
                                                and validate claims payment data from the California
                                                Dental Medicaid Management System (CD-MMIS) to
                                                the data in the OIG report to ensure that the data in
                                                both files are consistent.

                                                If the results of the analysis identify discrepancies
                                                between the data in CD-MMIS and the data in the
                                                OIG report, DHCS will schedule a meeting with CMS
                                                to discuss the discrepancies identified and to
                                                determine next steps.

                                         2. 	   If no data discrepancies are identified between the
                                                OIG dental claims file submitted to DHCS and the
                                                claims payment data from CD-MMIS, DHCS will
                                                request that CMS provide a Medicare Exclusion
                                                Database (MED) spreadsheet that contains all
                                                excluded Denti-Cal providers for the time period in
                                                question. Once the MED file is provided to DHCS, it


                                                      Page 2




California M edicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)                       15
                                               will be used to verify if the rendering providers were
                                               listed as excluded providers.

                                        If it is determined that any of the providers in the claims file
                                        from OIG were inappropriately paid, MDSD will identify the
                                        amounts of overpayments.

                                        MDSD anticipates completing the verification of excluded
                                        providers and identification of the overpayment amount
                                        within 30 days after receiving the MED information from
                                        CMS.

                                        Additionally, MDSD will implement the following corrective
                                        actions 60 days from the date MED is available for use
                                        electronically:

                                        1. 	   Denti-Cal will suspend excluded dental providers
                                               listed on the CMS MED and will attempt to recoup any
                                               overpayments made to excluded providers.
                                        2. 	   The Denti-Cal Provider Enrollment Unit will include
                                               the CMS MED as part of their current credentialing
                                               process, and will implement the 42 CFR Final Rule
                                               requirement of monthly verification via database
                                               checks for all dental providers.

                                        Disagree- CA-MMIS disagrees based on the review of
                                        claims identified by OIG as out of compliance. The data
                                        provided by OIG does not positively identify unallowable
                                        Medicaid payments for items and services furnished ,
                                        ordered, or prescribed by excluded providers. CA-MMIS
                                        compared the claims identified by OIG against the list of
                                        excluded providers , and f inds no providers on the list of
                                        excluded providers. In addition, DHCS does not agree with
                                        this recommendation as ordering and prescribing providers
                                        are not required to enroll in the Medi-Cal program since they
                                        are not direct billing providers. SB 1529, effective January 1,
                                        2013, will make the enrollment of ordering and prescribing
                                        providers a requirement. DHCS has informed CMS of the
                                        change in requirements and has approved this change
                                        through a State Plan Amendment.


              Recommendation: 	         The State Agency ensure that it does not pay for items or
                                        services furnished, ordered , or prescribed by excluded
                                        providers by developing and implementing policies and
                                        procedures to:


                                                      Page 3




California Medicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)                         16
                                        1. 	monitor agencies that enroll providers or process
                                            Medicaid claims to ensure compliance with CMS
                                            guidance that reviews be conducted monthly to identify
                                            excluded providers and
                                        2. 	determine whether any providers (i.e ., furnishing ,
                                            ordering, or prescribing) listed on claims are excluded
                                            and deny those claims .

               Response:                DHCS agrees with the recommendations.

                                        Agree- CA-MMIS agrees with the recommendation and has
                                        initiated System Development Notice (SDN) 12014 to utilize
                                        data, on a monthly basis, from the MED, Excluded Providers
                                        List System (EPLS), System for Award Management (SAM)
                                        and the List of Excluded Individuals/Entities (LEIE)
                                        databases. DHCS was to begin utilizing the Medicare data
                                        beginning January 2013 however, this date will be extended
                                        due to delays in obtaining access to the Medicare data.
                                        These delays are attributable in part, to Medicare not yet
                                        having the process in place for States to obtain automated
                                        downloads of their data from all of their systems.

                                        Once available, the CMS Excluded Provider data will be
                                        downloaded and used to create reports that will be used by
                                        DHCS staff to update the CA-MMIS with excluded provider
                                        information. In addition, DHCS has requested Provider
                                        Revalidation data extracts from the CMS database Provider
                                        Enrollment Chain and Ownership System (PECOS) in an
                                        effort to perform data matches with providers existing in CA­
                                        MMIS. DHCS currently has access to the PECOS
                                        application itself, but is unable to obtain data extracts, which
                                        will facilitate automated file comparisons. Due to the size of
                                        the Medi-Cal program, it is preferred that DHCS leverages
                                        an automated PECOS extract to reduce the manual effort of
                                        individual provider look-ups. Upon receipt of an automated
                                        data extract from CMS, DHCS plans to contact any providers
                                        that were not revalidated by Medicare within the past year
                                        and take appropriate action to ensure compliance with
                                        annual revalidation requirement.

                                        Agree- MHSD agrees with the recommendation.

                                        1. 	 MHSD will develop policies and procedures where, on a
                                             monthly basis, we will electronically screen our provider
                                             database to identify Mental Health Medi-Cal excluded
                                             providers. MHSD will require that Mental Health Plans
                                             (MHP) and/or their billing system vendors perform a
                                                      Page4




California Medicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)                         17
                                            similar screen on all contracted providers and sub­
                                            contracted providers who provide specialty mental health
                                            services and claim for such services through Mental
                                            Health Medi-Cal on behalf of the MHP.

                                        2 . 	 MHSD will develop policies, procedures and business
                                              rules that will identify, by Federal Identifier or otherwise,
                                             excluded Mental Health Medi-Cal providers . Once
                                              identified, excluded providers will be denied payment
                                             through Mental Health Medi-Cal claim systems.


                                        Agree - PED agrees with the recommendation .

                                        To ensure compliance with CMS guidelines related to the
                                        identification of excluded providers, the Interagency
                                        Agreements (lAs} between DHCS and all California
                                        Departments which enroll providers will be strengthened.
                                        This may include amending the lAs, auditing the lAs, and/or
                                        enforcing the terms of the lAs to help ensure that California
                                        does not pay for items or services furnished , ordered, or
                                        prescribed by excluded providers.

                                        To comply with provisions of the 201 0 Patient Protection and
                                        Affordable Care Act, the PED will begin enrolling the
                                        ordering , referring , and prescribing providers effective
                                        January 1, 2013. In addition , all actively-enrolled providers
                                        will be subject to a monthly data match utilizing data from the
                                        MED and the SAM database in order to update the CA­
                                        MMIS with excluded provider information. PED will
                                        terminate the enrollment of providers if they are identified in
                                        these monthly matches as being excluded from participation

                                        Beginning January 1, 2013, PED will also be utilizing the
                                        Medicaid and Children's Health Insurance Program (CHIP),
                                        State Information Sharing System (MCSIS) database to
                                        check provider terminations so that providers terminated
                                        from Medicare or another state Medicaid or CHIP program
                                        will not be enrolled in Medi-Cal or will be terminated from
                                        Medi-Cal and thus unable to submit claims for payment.




I! 	                                                   Page 5
1:

li
I'




California Medicaid Payments Associated With Excluded Providers (A -09-1 1-0201 6)                            18
